                                               CLOSEOUT MEMORANDUM




          Institution B , without
                          ~       any reduction in the amount of the award to Institution A.

                 0 1 queried Institution A to determine how the funds budgeted, but not spent, for salary were
          ultimately spent. Institution A provided a series of explanations for its use of the award funds. 0 1
          evaluated the explanations and concluded that most of the expenditures were within the scope of the
          award, and that the remaining expenditures were not clearly outside the scope.

                    Accordingly, this case is closed.




NSF 01G Form 2 (1 1/02)
